HHS/OIG, Audit -"Review of Title II of the Ryan White Comprehensive AIDS Resources Emergency Act at the Texas Department of Health,"(A-06-03-00010)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Title II of the Ryan White Comprehensive AIDS Resources Emergency Act at the Texas Department of Health," (A-06-03-00010)
June 14, 2004
Complete
Text of Report is available in PDF format (165 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We audited the Texas Department of Healths (Health Department)
implementation of CARE Act Title II for the grant year April 1, 2001-March 31, 2002, to determine if the Health Department
(1) met key service delivery performance goals and complied with program requirements; (2) purchased prescription drugs
at the lowest price available for the AIDS Drug Assistance Program (ADAP); and (3) followed applicable cost requirements
in the expenditure of CARE Act Title II funds.  The Health Department (1) exceeded its service delivery performance
goals and complied with program requirements; (2) purchased prescription drugs at the lowest price available for its
ADAP; and (3) substantially complied with cost requirements in the expenditure of CARE Act Title II funds, although there
were some areas where the Health Department could improve in terms of oversight and monitoring of sub-recipients.  We
recommended that the Health Department improve its oversight and monitoring of sub-recipients and emphasize compliance
with all financial and reporting requirements of the CARE Act Title II program.